NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
GARY SIMMONDS,
Petitioner,
Vv.

TERRITORY OF THE VIRGIN ISLANDS,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of the Virgin Islands.
MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS
The petitioner, Gary Simmonds, requests leave of the Court to file the
accompanying petition for writ of certiorari, without prepayment of costs, and to
proceed in forma pauperis. Petitioner was represented by court appointed counsel,
the Office of the Territorial Public Defender, in the Superior Court of the Virgin
Islands, District Court of the Virgin Islands, and the United States Court of Appeals

for the Third Judicial Circuit. He was permitted to proceed in forma pauperis in that
pent

Court.
This motion is filed pursuant to Rule 39 of this Court and title 4, section 513
of the Virgin Islands Code. Petitioner has previously been granted leave to proceed

in forma pauperis in the following courts:

. The District Court of the Virgin Islands.

. The United States Court of Appeals for the Third Circuit Judicial Circuit.

For the foregoing reasons, Petitioner requests this Court to grant leave for him to
proceed in forma pauperis without payment of costs and fees.

Date: Friday, July 16, 2021.

Respectfully submitted,

Frlechalhuu 6 Ongepehoe

Kelechukwu Chidi Onyejekwe
Appellate Public Defender

Counsel of Record

Office of the Territorial Public Defender
P.O. Box 6040

Saint Thomas

United States Virgin Islands 00804
Telephone: 340 774-8181

Facsimile: 340 774-3052

Counsel for Petitioner
